        AUDIT OF THE OFFICE OF

COMMUNITY ORIENTED POLICING SERVICES

   HIRING RECOVERY PROGRAM GRANT

         ADMINISTERED BY THE

SISKIYOU COUNTY SHERIFF’S DEPARTMENT

         YREKA, CALIFORNIA



      U.S. Department of Justice
    Office of the Inspector General
             Audit Division

     Audit Report GR-90-13-004
            August 2013
                     AUDIT OF THE OFFICE OF
             COMMUNITY ORIENTED POLICING SERVICES
                HIRING RECOVERY PROGRAM GRANT
                      ADMINISTERED BY THE
             SISKIYOU COUNTY SHERIFF’S DEPARTMENT
                      YREKA, CALIFORNIA

                            EXECUTIVE SUMMARY

       The Department of Justice Office of the Inspector General, Audit
Division, has completed an audit of the Office of Community Oriented
Policing Services (COPS) Hiring Recovery Program (CHRP) grant
2009-RK-WX-0159 awarded to the Siskiyou County Sheriff’s Department
(Siskiyou), in Yreka, California. 1 This grant provided $615,156 in funding to
Siskiyou in order to avoid the pending layoffs of three deputy positions.

      The purpose of the audit was to determine whether costs claimed
under the grant were allowable, reasonable, and in accordance with
applicable laws, regulations, guidelines, and terms and conditions of the
grant. The objective of our audit was to review performance in the following
areas: (1) application statistics, (2) internal control environment,
(3) expenditures, (4) drawdowns, (5) budget management and control,
(6) program income, (7) reporting, (8) additional award requirements,
(9) program performance and accomplishments, (10) retention plan, and
(11) post grant end date activity.

      To select CHRP grantees, COPS developed a methodology that scored
and ranked each applicant based on key data submitted by the applicant.
While COPS performed some limited data validity checks, COPS relied
heavily on the accuracy of the data submitted by grant applicants. We found
that Siskiyou submitted inaccurate information to COPS in its grant
application. Siskiyou officials explained that some of the budget and
personnel data may have been accurate at the time Siskiyou submitted the
grant application. However, Siskiyou officials were unable to provide
adequate supporting documentation to mitigate the effect of the
discrepancies. We performed sensitivity analyses using different scenarios
and determined that the correct crime rate data alone would have prevented
Siskiyou from obtaining the grant based on COPS’ CHRP award methodology.
As a result, we question the CHRP grant totaling $615,156.

       1
         The grant start date was July 1, 2009, and the end date, with all known time
extensions, was September 30, 2012.
     We also identified additional issues. Specifically, we found:

     •	 The grant account in Siskiyou’s accounting system did not
        accurately reflect grant expense activities;

     •	 Siskiyou’s grant budget was based on $60,815 salaries and benefits
        in excess of an entry-level position, which violates COPS’ CHRP
        rules;

     •	 Some timecards were not approved as required;

     •	 Siskiyou maintained on-board staffing levels significantly below its
        budgeted levels for 19 months, which indicates that Siskiyou may
        have supplanted $252,449 in CHRP funds; and

     •	 Siskiyou did not base its Federal Financial Reports on actual
        expenditures.

      As a result of these issues we questioned the CHRP grant totaling
$615,156 and provide seven recommendations to COPS to remedy those
funds and improve Siskiyou’s grant management processes. These items
are discussed in further detail in the Findings and Recommendations section
of the report. Our audit Objectives, Scope, and Methodology appear in
Appendix I and our Schedule of Dollar-Related Findings appears in
Appendix II.

       We discussed the results of our audit with Siskiyou officials and have
included their comments in the report, as applicable. In addition, we
requested written responses to this draft audit report from Siskiyou and
COPS and appended those comments to this report in appendices III and IV,
respectively. Our analysis of both responses, as well as a summary of
actions necessary to close the recommendations can be found in Appendix V
of this report.




                                     -ii­
                                TABLE OF CONTENTS


INTRODUCTION ........................................................................ 1

     The Office of Community Oriented Policing Services................... 1

     American Recovery and Reinvestment Act ................................ 2

     COPS Hiring Recovery Program ............................................... 2

     Background .......................................................................... 2

     OIG Audit Approach ............................................................... 3


FINDINGS AND RECOMMENDATIONS........................................ 5

     Application Statistics.............................................................. 5

     Internal Control Environment ................................................. 9

     Expenditures .......................................................................11

     Drawdowns .........................................................................13

     Budget Management and Control. ..........................................13

     Program Income. .................................................................17

     Reporting ........................................................................... 18

     Additional Award Requirements .............................................22

     Program Performance and Accomplishments............................22

     Retention Plan .....................................................................23

     Post Grant End Date Activity ................................................. 24

     Conclusion.......................................................................... 24

     Recommendations ............................................................... 24


APPENDICES:

I    - OBJECTIVE, SCOPE, AND METHODOLOGY........................ 26


II   - SCHEDULE OF DOLLAR-RELATED FINDINGS ................... 28


III - THE SISKIYOU COUNTY SHERIFF'S DEPARTMENT RESPONSE

       TO THE DRAFT AUDIT REPORT ..................................... 29


IV - OFFICE OF COMMUNITY ORIENTED POLICING SERVICES’

       RESPONSE TO THE DRAFT AUDIT REPORT................... 37


V    - OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND SUMMARY

         OF ACTIONS NECESSARY TO CLOSE THE REPORT ........ 42

                    AUDIT OF THE OFFICE OF
            COMMUNITY ORIENTED POLICING SERVICES
               HIRING RECOVERY PROGRAM GRANT
                     ADMINISTERED BY THE
            SISKIYOU COUNTY SHERIFF’S DEPARTMENT
                     YREKA, CALIFORNIA

                                INTRODUCTION

       The Department of Justice (DOJ) Office of the Inspector General (OIG),
Audit Division, has completed an audit of the Office of Community Oriented
Policing Services (COPS) Hiring Recovery Program (CHRP) grant,
2009-RK-WX-0159, awarded to the Siskiyou County Sheriff’s Department
(Siskiyou), in Yreka, California. This grant, in the amount of $615,156, was
to be used to avoid the pending layoffs of three deputy positions.

                             EXHIBIT 1:

                       CHRP GRANT AWARDED TO

                SISKIYOU COUNTY SHERIFF’S DEPARTMENT

                              AWARD        AWARD      AWARD
              AWARD         START DATE   END DATE 1   AMOUNT
         2009-RK-WX-0159             07/01/09         09/30/12         $   615,156
                                                            Total      $   615,156
  Source: COPS

      The purpose of the audit was to determine whether costs claimed
under the grant were allowable, reasonable, and in accordance with
applicable laws, regulations, guidelines, and terms and conditions of the
grant. The objective of our audit was to review performance in the following
areas: (1) application statistics, (2) internal control environment,
(3) expenditures, (4) drawdowns, (5) budget management and control,
(6) program income, (7) reporting, (8) additional award requirements,
(9) program performance and accomplishments, (10) retention plan, and
(11) post grant end date activity.

The Office of Community Oriented Policing Services

      COPS within the DOJ, assists law enforcement agencies in enhancing
public safety through the implementation of community policing strategies in

     1
         The Award End Date includes all time extensions that were approved by COPS.
jurisdictions of all sizes across the country. COPS provides funding to state,
local, and tribal law enforcement agencies and other public and private
entities to hire and train community policing professionals, acquire and
deploy cutting-edge crime-fighting technologies, and develop and test
innovative policing strategies.

American Recovery and Reinvestment Act

      On February 17, 2009, the President signed into law the American
Recovery and Reinvestment Act of 2009 (Recovery Act). The purposes of
the Recovery Act were to: (1) preserve and create jobs and promote
economic recovery; (2) assist those most impacted by the recession;
(3) provide investments needed to increase economic efficiency by spurring
technological advances in science and health; (4) invest in transportation,
environmental protection, and other infrastructure that will provide long
term economic benefits; and (5) stabilize state and local government
budgets in order to minimize and avoid reductions in essential services and
counterproductive state and local tax increases.

       The Recovery Act provided approximately $4 billion to the DOJ in grant
funding to be used to enhance state, local, and tribal law enforcement
efforts. Of these funds, $1 billion was provided to COPS for grants to state,
local, and tribal governments to hire or retain police officers.

COPS Hiring Recovery Program

       To distribute the Recovery Act money, COPS established CHRP, a grant
program for the hiring, rehiring, and retention of career law enforcement
officers. COPS created CHRP to provide 100 percent of the funding for
approved entry-level salaries and benefits (for 3 years) for newly-hired, full-
time sworn officer positions, for rehired officers who had been laid off, or for
officers who were scheduled to be laid off on a future date. COPS received
7,272 applications requesting funding for approximately 39,000 officer
positions. On July 28, 2009, COPS announced its selection of 1,046 law
enforcement agencies as recipients of the $1 billion CHRP funding to hire,
rehire, and retain 4,699 officers. The grants were competitively awarded
based on data submitted by each applicant related to fiscal and economic
conditions, rates of crime, and community policing activities.

Background

      The County of Siskiyou is located in northern California, adjacent to
the Oregon border, and is 199 miles northeast of Eureka, California.
According to the U.S. Census Bureau, the County of Siskiyou covers 6,278


                                     -2­
square miles and as of 2011, the estimated population was 44,507. Siskiyou
was one of the areas that experienced a population boom due to California’s
Gold Rush in the mid 1800’s. According to Siskiyou, at the pinnacle of
Siskiyou’s lumber industry, there were 23 to 25 lumber mills. However,
currently there are three lumber mills that are operational. Siskiyou’s
mission, according to the Siskiyou County Sheriff’s Department, is to provide
competent, effective, and responsive public safety services to the citizens of
Siskiyou and its visitors. According to the Federal Bureau of Investigation’s
(FBI) Uniform Crime Report, in calendar year 2008 Siskiyou County reported
4 motor vehicle thefts, 125 burglaries, 55 aggravated assaults, and
5 robbery incidents.

OIG Audit Approach

       We tested Siskiyou’s compliance with what we considered to be the
most important conditions of the CHRP grant. Unless otherwise stated in our
report, we applied the 2009 CHRP Grant Owner’s Manual (Grant Owner’s
Manual) as our primary criteria during our audit. The Grant Owner’s Manual
serves as a reference to assist grantee agencies with the administrative and
financial matters associated with the grant. The manual was developed by
COPS to ensure that all CHRP grantees understand and meet the
requirements of the grant. We also considered applicable Office of
Management and Budget (OMB) and Code of Federal Regulations (C.F.R.)
criteria in performing our audit. We tested Siskiyou’s:

      •	 Application Statistics – to assess the accuracy of key statistical
         data that the grantee submitted with its CHRP application.

      •	 Internal Control Environment – to determine whether the
         internal controls in place for how labor charges are recorded,
         authorized, and allocated to the grant were adequate to ensure
         compliance with the terms and conditions of the grant.

      •	 Expenditures – to determine whether costs charged to the grant,
         including payroll and fringe benefits costs, were accurate,
         adequately supported, allowable, reasonable, and allocable.

      •	 Drawdowns – to determine whether drawdowns were adequately
         supported and if Siskiyou was managing grant receipts in
         accordance with federal requirements.

      •	 Budget Management and Control – to determine whether there
         were deviations between the amounts budgeted and the actual
         costs for each category.


                                    -3­
     •	 Program Income – to determine whether any program income
        generated from the grant funds was appropriately managed.

     •	 Reporting – to determine if the required financial, programmatic,
        and Recovery Act reports were submitted on time and accurately
        reflected grant activity.

     •	 Additional Award Requirements – to determine whether
        Siskiyou complied with award guidelines and special conditions.

     •	 Program Performance and Accomplishments – to determine
        whether Siskiyou made a reasonable effort to accomplish stated
        objectives.

     •	 Retention Plan – to determine whether there are significant
        impediments to Siskiyou’s ability to adhere to the grant
        requirement to retain the grant-funded officers for a minimum of 12
        months after the conclusion of the grant-funded period.

     •	 Post End Date Activity – to determine, for the grant that has
        ended, whether, Siskiyou complied with post end date award
        requirements.

      These items are discussed in further detail in the Findings and
Recommendations section of the report. Our audit Objective, Scope, and
Methodology appear in Appendix I and our Schedule of Dollar-Related
Findings appears in Appendix II. We discussed the results of our audit with
Siskiyou officials and have included their comments in the report, as
applicable.




                                    -4­
                 FINDINGS AND RECOMMENDATIONS

              We found that the support Siskiyou provided for some
              application data did not match the statistics submitted on
              its grant application. We performed a sensitivity analysis
              and determined that the correct crime data alone would
              have prevented Siskiyou from obtaining the grant based
              on COPS’ CHRP award methodology. 2 In addition, we
              noted that the grant account in Siskiyou’s accounting
              system did not record actual grant-related expenditures.
              We also found that Siskiyou’s grant budget exceeded costs
              for an entry-level position, which was in violation of CHRP
              rules. We identified indications of supplanting for 19
              months of the grant program. As a result of these issues,
              we question the $615,156 CHRP grant in its entirety.

Application Statistics

      To select CHRP grantees, COPS developed a methodology that scored
and ranked applicants based on data related to their fiscal and economic
conditions, rates of crime, and community policing activities. In general, the
applicants experiencing more fiscal and economic distress, exhibiting higher
crime rates, and demonstrating well-established community policing plans
received higher scores and were more likely to receive a grant. While COPS
performed some limited data validity checks, COPS relied heavily on the
accuracy of the data submitted by grant applicants. In the CHRP Application
Guide, COPS reminded applicant agencies to provide accurate agency
information as this information may be used, along with other data collected,
to determine funding eligibility. In our May 2010 report of the COPS grant
selection process, we found that the validation process COPS used to ensure
the accuracy of the crime data submitted by applicants was inadequate. 3 As
a result, some agencies may have received grant funds based on inaccurate
applications. However, we were unable to determine the number of
applications that included inaccurate data.



       2
         Sensitivity Analysis is defined as a systematic methodology to compute the
changes to the total score obtained using COPS algorithm from changes made to the input
parameters values (or input variable data values) and the impact of total score change on
ranking of the applicant.
       3
         U.S. Department of Justice Office of the Inspector General, A Review of the
Selection Process for the COPS Hiring Recovery Program, Audit Report 10-25, (May 2010).




                                          -5­
      During this audit, we requested documentation from Siskiyou to
support the information it submitted in its grant application to COPS to
secure the 2009 CHRP grant and we found inaccuracies in this information.
The accuracy of the statistics in the grant application is of concern since this
grant program was awarded on a competitive basis and award decisions
were based on the data contained in the application.

       In our assessment of the grant application and documents furnished
by Siskiyou, we found discrepancies with the support that Siskiyou provided
for its budget and personnel reduction data, family poverty rate,
unemployment statistics, and crime data. We discussed these discrepancies
with Siskiyou officials who stated that some of the data may have been
correct at the time the application was submitted. Therefore, we performed
a sensitivity analysis on COPS’ award methodology using multiple scenarios
assuming that some of the data was correct at the time of submission.
However, under each scenario the sensitivity analysis determined that
Siskiyou should not have received the grant. Specifically, we determined
that the correct crime statistics alone would have prevented Siskiyou from
receiving the grant. As a result, we question the award amount of
$615,156. Our analysis is explained in more detail below.

Application Data

       In 2009 when COPS scored applications for award, Siskiyou’s
application score was only slightly above the highest score for “small
applicants” that did not receive a grant. 4 This indicated that Siskiyou’s
application qualified for the grant with a very slim margin. To ensure the
grant was appropriately awarded to Siskiyou, we attempted to verify the
statistics it submitted by requesting support for the application data that
Siskiyou submitted for Section 4 of the CHRP application: Need for Federal
Assistance. However, we noted that the support provided for some of the
data did not match the statistics submitted. We performed a sensitivity
analysis based on the award methodology COPS employed for the CHRP
awards by using the revised data that Siskiyou was able to support. This
analysis determined that the points allocated for its application based on
that revised data fell below the threshold for an award.

       During field work, we discussed the discrepancies with Siskiyou
officials, who indicated that some of the budget and personnel reduction
data may have been accurate at the time it submitted the application.

      4
           “Small applicants” are law enforcement agencies that serve populations less than
150,000.




                                            -6­
However, Siskiyou could not provide an explanation for the discrepancy in
crime statistics at that time. 5 In addition, we found that the correct rate for
family poverty was significantly higher than the rate Siskiyou submitted on
its application. 6 As a result, we performed another sensitivity analysis based
on the assumption that the budget, personnel reduction, and unemployment
discrepancies were correct at the time of submission, but we applied the
corrected family poverty and crime rates. 7 Based on this revised analysis,
we determined that while the correct family poverty rate increased
Siskiyou’s score in relation to our first sensitivity analysis, the correct crime
statistics would have prevented Siskiyou from obtaining the grant based on
COPS’ CHRP award methodology. Using the correct family poverty rate and
crime statistics, Siskiyou’s application would have received a final score that
was significantly below the small applicants’ threshold for receiving a grant.

       UCR Crime Data

       During our exit conference we informed Siskiyou officials about the
deficiency in the application statistics and in response, Siskiyou provided
new information in an effort to substantiate its crime data reported in its
grant application. However, this information conflicted with documentation
we were previously provided, and Siskiyou did not provide supporting
documentation for this new information. Further, we noted that Siskiyou
included crime data for several cities that had their own police departments
and reported their statistics separately to the FBI UCR Program. Siskiyou
stated it believed it was appropriate to include the crime data for those
additional police departments since they are within Siskiyou County’s
geographical jurisdiction. However, we noted that the grant application
states “using the UCR crime definitions, enter the actual number of incidents
reported to your jurisdiction in calendar year 2008 for the following crime
types.” According to the 2004 UCR Handbook, cities that have their own
police department must report their own crime data to the UCR program,
unless there was an agreement to do otherwise.

       5
          During our audit fieldwork, we requested Siskiyou’s support for its application
crime statistics. In response to that request, Siskiyou provided its 2008 submission to the
FBI' Uniform Crime Reporting (UCR) Program.
       6
        The application requested the family poverty rate as identified in the Census
Bureau 2005-2007 American Community Survey.
       7
         In using these statistics, we summed appropriate crime data reported for Siskiyou
County, as well as cities within the geographic borders of the County which: (1) do not
have their own police departments for which Siskiyou County provided policing services
(Fort Jones, Dunsmuir, Montague, and Dorris, California), and (2) cities with whom Siskiyou
County had crime reporting agreements (Etna and Tulelake).




                                           -7­
       To ensure we are including the appropriate crime data, we requested
information regarding agreements that Siskiyou had with these other
jurisdictions and Siskiyou provided us with agreements to provide policing
services to the cities of Fort Jones, Dunsmuir, Montague, and Dorris.
Further, Siskiyou provided us with crime reporting agreements for the cities
of Etna and Tulelake. However, Siskiyou did not provide us agreements with
the other entities for which it provided us crime statistics, which included
Mt. Shasta, Weed, Yreka, and the California Highway Patrol. Therefore, we
concluded that based on the information requested in the application, it was
appropriate to only include in our analysis UCR crime data for Siskiyou
County Sheriff’s Department, as well as the cities of Fort Jones, Dunsmuir,
Montague, Dorris, Etna, and Tulelake.

      Exhibit 2 presents our analysis and comparison of values for key
questions from Siskiyou’s section 4 application with the audited value which
we were able to support. This table only presents the application questions
for which we ultimately determined Siskiyou submitted inaccurate
information.

                                            EXHIBIT 2: 

                      SIGNIFICANT DISCREPANCIES FOUND IN SIKSIYOU’S 

                               SECTION 4 CHRP APPLICATION DATA

                                                                      FINAL OIG
                                                         APPLICATION   AUDITED
         Q.                      DESCRIPTION               VALUES       VALUE1
        8a.        Family Poverty Rate2                        12.8%       26.9%
        13a        Criminal Homicide                                1           1
        13b        Forcible Rape                                   10          10
        13c        Robbery                                          7           5
        13d        Aggravated Assault                            216           59
        13e        Burglary                                      133          129
        13f.       Larceny (except motor vehicle theft)          119          194
        13g        Motor Vehicle Theft                             79           4
      Source: OIG Analysis of Siskiyou Application and Corresponding Support




                                                       
             1
          As stated previously, our final analysis was based on the assumption that the
application information for budget, personnel reduction, and unemployment statistics was
correct at the time of submission; this final OIG analysis only applied the corrected family
poverty and crime rates. Our analysis of data for crime rates in question 13 included 2008
UCR crime data for Siskiyou County Sheriff’s Department, as well as the cities of Fort Jones,
Dunsmuir, Montague, Dorris, Etna, and Tulelake.   
             2
        The application requested the family poverty rate identified in the Census Bureau
2005-2007 American Community Survey.


                                                          -8­
       Even in consideration of the higher family poverty rate, we concluded
that using corrected crime data would have resulted in Siskiyou’s application
receiving a significantly lower score than the COPS-calculated score using
the inaccurate data. Because the corrected score fell below the threshold for
awarding CHRP grants to small applicants based on COPS’ CHRP award
methodology, we question Siskiyou’s award totaling $615,156. In addition,
we recommend COPS ensure that Siskiyou establishes procedures to verify
that it submits accurate information for future DOJ grant applications.

Internal Control Environment

      We reviewed Siskiyou’s Single Audit Report and obtained an
understanding of Siskiyou’s financial management system. We also
interviewed grantee officials and performed salary and fringe benefit testing
to gain an understanding of Siskiyou’s internal control environment. Below
we detail the results of our review of the Single Audit Report and Siskiyou’s
financial management system.

Single Audit

       According to OMB Circular A-133, Audits of States, Local Governments,
and Non-Profit Organizations, non-federal entities that expend $500,000 or
more in federal awards in a year shall have a Single Audit conducted. We
reviewed the County of Siskiyou’s Single Audit Reports for fiscal years (FY)
ending June 30, 2010, and June 30, 2011. We found that both reports
identified significant deficiencies. Key findings from the June 30, 2011,
Single Audit Report that may have impacted our audit are listed below.

      •	 Finding 11-FS-1 (Significant Deficiency) identified the lack of a
         written, uniform policy requiring the approval of a direct supervisor
         in departments that are too large for the department head to have
         personal knowledge of the work each of his or her employees are
         performing.

      •	 Finding 11-SA-3 (Material Weakness) reported noncompliance with
         salary documentation requirements related to 2 C.F.R. Part 225,
         Cost Principles for State, Local, and Indian Tribal Governments
         (formerly known as OMB Circular A-87) and timecards that were
         not approved by a supervisor.

      •	 Finding 11-SA-7 (Material Weakness) involved timing differences at
         the beginning and end of the period which caused reporting of
         incorrect federal expenditure amounts.



                                     -9­
       We found that the County of Siskiyou responded to the issues
identified in the Single Audit Report. However, our audit revealed
deficiencies regarding the Siskiyou County Sheriff’s Department’s adherence
to its timecard approval policies and process for developing Federal Financial
Report (FFR) expenditures. These deficiencies are discussed in more detail
in the Expenditures and Reporting sections of this report.

Financial Management System

       According to the Grant Owner’s Manual: “[the grantee’s] accounting
system should...[t]rack all drawdowns and grant expenditures, including the
actual costs of salaries and fringe benefits paid to the CHRP-funded
officers...” Additionally, the grant award’s special condition states: “The
recipient agrees to maintain accounting systems and records that adequately
track, account for, and report on all funds from this Recovery Act award
(including officers hired, salaries and fringe benefits paid, and the number of
jobs created and jobs preserved) separately from all other funds (including
other COPS and federal grants awarded for the same purposes).” Finally,
28 C.F.R. Part 66, Uniform Administrative Requirements for Grants and
Cooperative Agreements with State and Local Units of Governments specify
standards for financial management systems that will adequately identify the
source and application of funds provided for financially-assisted activities.

      We determined that the grant account did not reflect accurate grant
expense activities. Specifically, Siskiyou officials stated that it first paid the
payroll (including salary and fringe benefits) of the grant-funded deputies
out of Siskiyou’s local fund. Then, officials stated that on a quarterly basis
they calculated the payroll amount that should be allocated to the grant. We
reviewed the accounting records provided by the grantee and determined
that for the first 2 years of the grant Siskiyou posted in its accounting
system lump sum journal entries to the grant account which generally
totaled an amount equal to the COPS-approved payroll budget for each year
divided by four. 10 However, these lump sum amounts neither accounted for
the total program costs, nor did they account for grant expenditures as they
were incurred. We discussed this issue with Siskiyou officials, who
responded that the Department now understands that it is important to
show the actual amount being spent on salaries during the quarter and that
procedure will be enforced in all future grant billings where this type of
tracking is required. As a result, we recommend COPS ensure that Siskiyou
develops procedures to adequately account for future grant-related

       10
         One journal entry for the second year of the grant totaled 2 quarters, but the
amounts for that year totaled the amount approved in the budget.




                                          - 10 ­
expenditures in accordance with 28 C.F.R. Part 66 standards for financial
management systems.

Expenditures

      In our testing of the salary and fringe benefit costs, we first
determined whether Siskiyou had charged the entry-level salary and fringe
benefit costs as required by the Grant Owner’s Manual. Then, we selected a
judgmental sample of two non-consecutive pay periods for the grant-funded
deputies and tested the selected payroll transactions to verify that salaries
and fringe benefit costs were accurate, adequately supported, and
reasonable. We describe the results of our payroll testing below.

Entry-Level Salary

     The Grant Owner’s Manual states: “Salaries covered by CHRP must be
based on your agency's standard entry-level salary and fringe benefits
package under the laws or rules that govern hiring by your agency.”

       We found that Siskiyou did not include the entry-level salary amount
for its grant-funded deputies and the corresponding fringe benefits in its
application. Instead, Siskiyou included the salary and its corresponding
fringe benefits of a fully trained journeyman-level deputy position. Siskiyou
officials explained that it used this rate because it did not have any Deputy I,
or entry-level, positions within the Department and did not hire at that level.
However, we found no COPS-approved exemption for Siskiyou to use the
journeyman-level salary rather than the required entry-level salary amount.
As a result, we determined that the grant budget was overstated by the
difference in personnel costs between an entry-level position and a
journeyman-level position for the three full-time deputies for 3 years. We
questioned the difference in personnel costs totaling $60,815.

Improperly Approved Timecards

       2 C.F.R. Part 225 states “To be allowable under Federal awards, costs
must . . . be adequately documented.” Further, “Charges to federal awards
for salaries and wages . . . will be based on payrolls . . . approved by a
responsible official(s) of the governmental unit.” Furthermore, Siskiyou’s
Timekeeping Policy states: “Employee: . . . Make sure you agree with your
hours and leave balances as entered . . . Supervisors will approve their
subordinate’s times up to the last day of work at the end of the pay period.”

      We performed salary testing on two non-consecutive pay periods
during the grant period: pay period ending November 29, 2009, and pay


                                     - 11 ­
period ending March 31, 2012. We noted that the number of hours worked
by the deputies assigned to the grant, as reflected in their timecards, were
accurately recorded into the County of Siskiyou’s financial management
system for both pay periods tested. However, for the pay period ending
November 29, 2009, the timecards of the three grant-funded deputies were
not properly authorized as they were missing the employee's electronic
approval in the Kronos Timekeeping System. In addition, for the pay period
ending March 31, 2012, the timecard of one grant-funded deputy was not
properly authorized as it was missing the supervisor's electronic approval in
the Kronos Timekeeping System.

      A Siskiyou official stated that the Kronos Timekeeping System defaults
to 80 base hours even if timecards were not signed off by the sworn deputy
and the supervisor. The official also stated that a prior audit included a
similar finding regarding the timecard approval process and that the County
of Siskiyou has since issued a memorandum to all the departments
reiterating the policy requiring that employees and supervisors approve all
timecards.

       After our audit fieldwork, Siskiyou retroactively approved the
unsupported timecards of the three grant-funded deputies we discussed
above. Therefore, we did not question the costs associated with those
timecards. In addition, after our audit fieldwork, Siskiyou provided updated
payroll procedures. However, based on our review of these revised
procedures, we believe that the revised procedures would not prevent the
deficiency we identified in the timecard approval process from occurring
again. Therefore, we recommend that COPS ensures that Siskiyou properly
approves its employees' timecards.

       We obtained from Siskiyou the actual payroll details of the grant-
funded deputies, which showed the amount the deputies were paid. We
tested the accuracy of the payroll details by judgmentally selecting three
non-consecutive pay periods for each FY – specifically for FYs 2010, 2011,
and 2012. We traced the payroll expense details to the time sheet print
screens. We found that the payroll details were accurate except that the
details showed that the deputies were paid a dollar amount for comp time.
However, according to the grant manager, the deputies were not paid a
dollar amount for comp time. Instead, the deputies were compensated by
taking paid leave.

Fringe Benefits

      Based on our review of the grant account and our interview with
Siskiyou’s official, we determined Siskiyou only charged the fringe benefits


                                    - 12 ­
costs as stated on the grant budget. Therefore, we performed testing to
determine if fringe benefit percentages stated on the grant budget were
properly supported. Based on our testing, we determined that Social
Security, Medicare, life insurance, vacation, sick leave, retirement, and night
differential payment fringe benefit rates on the grant application were
properly supported. However, health insurance, worker's comp, and
unemployment insurance fringe benefit rates were not supported as Siskiyou
did not provide adequate documentation to support the amounts charged.
Nonetheless, since Siskiyou had charged less total fringe benefits on the
grant budget than the supportable total fringe benefits, we did not question
the costs.

Drawdowns

      COPS requires grantees to minimize the cash maintained on hand by
requesting funds based on immediate cash disbursement needs. Even
though advances are allowed, funds must be used within 10 days of an
electronic transfer. As of May 2012, Siskiyou drew down $559,418 in grant
funds.

      We asked Siskiyou’s Fiscal Officer about Siskiyou’s process for
requesting drawdowns and she stated that she calculated drawdown
amounts using the payroll budget information in the grant application. She
divided the total grant award by 3 years to obtain an annual personnel cost
amount and divided that figure by four to obtain a drawdown amount. This
drawdown amount is what she requested as reimbursement for
expenditures. To ensure drawdowns were not in excess of grant-related
expenditures, we compared the deputies’ salary expenditures with total
drawdowns and concluded that expenditures exceeded drawdowns.

Budget Management and Control

       Criteria established in 28 C.F.R. § 66.30 addresses budget controls
surrounding grantee financial management systems. According to the
C.F.R., grantees are permitted to make changes to their approved budgets
to meet unanticipated program requirements. However, the movement of
funds between approved budget categories in excess of 10 percent of the
total award must be approved in advance by the awarding agency. Exhibit 3
summarizes the budget for this grant by category.




                                    - 13 ­
                                  EXHIBIT 3:

                              CHRP GRANT BUDGET

                            GRANT 2009-RK-WX-0159

                     CATEGORY             BUDGET AMOUNT

                Personnel                            $389,067
                Fringe Benefits                      $226,089

                Total                               $615,156
               Source: COPS

      As explained in the Internal Control Environment section of this report,
Siskiyou recorded only lump sum expenditure amounts in its grant account.
These lump sum amounts did not differentiate between grant-funded
personnel and fringe benefit costs. Therefore, we could not perform
standard analysis on the grant account to determine whether the 10 percent
rule was followed. However, the grant was only for salary and fringe
benefits and we were provided support that only salary and benefits were
charged to the grant. Given that the grant was only for salaries and fringe
benefits, we do not believe the 10 percent rule was violated.

Supplanting

       On September 8, 2009, Siskiyou signed assurances that it would
comply with 16 special conditions as a condition to receive COPS funding.
Special condition number 4 states that “CHRP grant funds may not be used
to replace state or local funds (or, for tribal grantees, Bureau of Indian
Affairs funds) that would, in the absence of federal aid, be made available
for hiring and for rehiring full-time career law enforcement officer positions.”
According to the Grant Owner’s Manual, the non-supplanting requirement
means that a grant recipient receiving CHRP grant funds to hire a new officer
position, including filling an existing officer vacancy that is no longer funded
in the recipient’s local budget, must hire the additional position on or after
the official grant award start date, above its current budgeted (funded) level
of sworn law enforcement positions.

      We reviewed Siskiyou’s funded strength from July 2009 to May 2012
to determine if Siskiyou filled local vacancies above its current funded level
of sworn law enforcement positions. Based on the information Siskiyou
provided, we identified the amount of locally-funded law enforcement
personnel positions that Siskiyou had budgeted for in FY 2009 through




                                     - 14 ­
FY 2012, which totaled 62, 60, 58, and 49 positions, respectively. 11 In order
to assess whether Siskiyou adhered to the non-supplanting requirement, we
developed a target rate using the locally-funded positions as a base.
Specifically, for the grant period starting in July 2009, we added to the
locally-funded base budget three positions for the CHRP-funded positions to
account for three positions that the grant was to retain, and we reduced this
target level by an estimated 5 percent attrition rate for normal turnover. 12
We then compared this target rate to the actual number of law enforcement
personnel on board on a monthly basis. As seen in Exhibit 4, we note
months where the total target sworn law enforcement level dipped below the
actual sworn law enforcement level even after factoring in a 5 percent
attrition allowance into the target rate.




      11
          Budgeted positions did not include any law enforcement positions that were
frozen, which means authorized but unfunded due to budget issues.
      12
          The OIG has factored in 5 percent for normal and routine personnel turnover,
which means that the Target law enforcement Level represents a range consisting of 95
percent to 100 percent of the target.




                                          - 15 ­
                            EXHIBIT 4:

        TARGET AND ACTUAL SWORN LAW ENFORCEMENT ON BOARD

 64
 63
 62
 61
 60
 59
                                                              Actual Law
 58                                                           Enforcement Level
 57                                                           Target Law
                                                              Enforcement Level
 56
 55
 54
 53
 52
 51
 50
 49
 48
 47
      Dec-09




      May-10




      Dec-10




      May-11
      Aug-09




      Apr-10
      Oct-09
      Nov-09

       Jan-10

      Mar-10


      Jun-10

      Aug-10




      Apr-11




      Dec-11




      May-12
        Jul-09




      Oct-10
      Nov-10

       Jan-11

      Mar-11


      Jun-11

      Aug-11




      Apr-12
      Sep-09




      Feb-10




        Jul-10




      Oct-11
      Nov-11

       Jan-12

      Mar-12
      Sep-10




      Feb-11




        Jul-11

      Sep-11




      Feb-12
                                             Months
Source: OIG analysis of Siskiyou’s records

      Our analysis revealed that Siskiyou was one to eight positions below
the baseline from January 2010 to June 2011 and May 2012 (a total of
19 months). We consider the on-board levels during these months in which
the actual sworn law enforcement positions were below the target sworn law
enforcement level to indicate months of supplanting. In order to understand
why the on-board sworn law enforcement level dipped below the target
sworn law enforcement level, we requested budgetary information from
Sikiyou’s Fiscal Officer, because dips in the actual level of sworn law
enforcement positions could have been attributable to budgetary reductions
in those specific fiscal years. From FY 2010 to FY 2012 there were either
discussions concerning budgetary reductions or actual budget cuts. We
asked Siskiyou officials to provide us with support for how many positions in
the Sheriff’s Department would have been affected by the budgetary
reductions. However, we were not provided with adequate documentation to
support the number of sworn law enforcement positions that were cut or
would have been cut by budgetary reductions.



                                         - 16 ­
       In our analysis, we factor a 5 percent attrition rate for normal turnover
prior to the award period. However, if law enforcement agencies can
support a higher attrition rate based on historical vacancy rates prior to the
grant period, we utilize their validated percentage in our analysis. After we
held an Exit Conference with Siskiyou officials to discuss the audit findings,
Siskiyou provided new information regarding Siskiyou’s historical attrition
rates to incorporate into our analysis. Siskiyou provided a spreadsheet of its
law enforcement personnel’s hire and termination date and a calculation of
an attrition rate for FYs 2008 to 2012. This spreadsheet showed that prior
to the start of the grant period, Siskiyou calculated a 5 percent attrition rate,
which confirmed that it was reasonable for us to utilize a 5 percent attrition
rate in our analysis. Siskiyou also provided budget-related documents and
calculations to indicate the number of sworn law enforcement positions
affected by budgetary cuts. However, Siskiyou did not provide support for
its calculations. As a result, we question $252,449 related to indications of
supplanting that we found in our audit.

Program Income

      In addition, based on the testing we performed and according to
statements made by Siskiyou officials, Siskiyou utilized grant-funded
deputies to provide law enforcement services under a contractual basis to
four cities. 13 According to 28 C.F.R. § 66.25, we consider the revenue
generated by the grant-funded deputies as program income. We found no
authorization from COPS for Siskiyou to earn program income, and Siskiyou
did not report any program income to COPS on its FFRs, which as discussed
in the Reporting section made the FFRs inaccurate.

      28 C.F.R. § 66.25 states that “[g]rantees are encouraged to earn
income to defray program costs,” and “[p]rogram income shall be deducted
from outlays which may be both Federal and non-Federal….” With regards
to deducting program income, the same regulation states: “[o]rdinarily
program income shall be deducted from total allowable costs to determine
the net allowable costs. Program income shall be used for current costs
unless the Federal agency authorizes otherwise.”

       Based on this criteria, Siskiyou should have reduced its total allowable
costs by the amount that it earned from its contracts with the four local
cities. However, as we already have discussed in the Internal Control


       13
         The grant-funded deputies worked in the cities of Montague, Dorris, Fort Jones,
and Dunsmuir in support of contracts Siskiyou established with each city for fiscal years
2010, 2011, and 2012.




                                          - 17 ­
Environment section of this report, Siskiyou did not record actual costs
associated with the CHRP grant in its grant-related accounting records.
Instead, it recorded only budgeted amounts that totaled the grant award.
Therefore, we could not definitively determine the total allowable costs, and
thereby the net allowable costs. What we were able to determine was an
estimated amount ($252,567) of program income that Siskiyou received
from its contracts with the four local cities and that specifically related to the
three grant-funded deputies. 14

       We confirmed that the Siskiyou Sheriff’s Department did not have a
written policy on tracking program income. We discussed this issue with
Siskiyou officials, who responded that the Department will establish an
official policy to adequately track income generated by grant or federally
funded positions in order to accurately report program income on the FFRs
as well as appropriate Progress Reports. As a result, we recommend that
COPS ensure Siskiyou establishes procedures to track and report future
program income generated by federal grant-funded activities and ensure
such revenue is recorded in Siskiyou’s grant-related accounting records as
required. In addition, we recommend that COPS ensure Siskiyou calculates
the net allowable cost for its CHRP grant by determining the total allowable
costs, verifying the total program income earned by its three grant-funded
deputies, and subtracting the program income from total allowable costs. If
net allowable costs are below the CHRP grant award of $615,156, then
Siskiyou may need to return the difference to COPS.

Reporting

      According to the Grant Owner’s Manual, award recipients are required
to submit both quarterly FFRs and quarterly Progress Reports. Moreover,
since this was a Recovery Act grant, Siskiyou was also required to submit
quarterly Recovery Act reports. We reviewed the FFRs, Progress Reports,
and quarterly Recovery Act reports submitted by Siskiyou to determine
whether each report was accurate and submitted in a timely manner.

Federal Financial Reports

     The financial aspect of CHRP grants are monitored through FFRs.
According to the Grant Owner’s Manual, FFRs should be submitted within

      14
           To calculate program income related for the CHRP grant that we audited, we
identified an effective rate (total revenue received divided by the total hours worked on
each contract) by which Siskiyou was reimbursed for each contract. We then multiplied the
applicable effective rate by the number of hours that each grant-funded deputy worked on
each contract, which resulted in the amount of revenue generated by the deputies.




                                         - 18 ­
45 days of the end of the most recent quarterly reporting period. Even for
periods when there have been no program outlays, a report to that effect
must be submitted. Funds may be withheld if reports are not submitted or
are excessively late. A Siskiyou official stated it submitted FFRs with
expenditure amounts based on the requested drawdown amounts. As of
December 31, 2011, Siskiyou submitted 10 FFRs for this grant. We tested
each FFR for accuracy and timeliness. As shown in Exhibit 5, we did not
note any reportable exceptions with regard to the timeliness of FFRs that
Siskiyou submitted.

                               EXHIBIT 5:

                   FEDERAL FINANCIAL REPORT HISTORY

                         GRANT 2009-RK-WX-0159

           REPORT PERIOD          REPORT        DATE
         (FROM - TO DATES)       DUE DATE    SUBMITTED            DAYS LATE
 1      07/01/09 to 09/30/09     11/14/09     10/20/09               0
 2      10/01/09 to 12/31/09     01/30/10     01/07/10               0
 3      01/01/10 to 03/31/10     04/30/10     04/09/10               0
 4      04/01/10 to 06/30/10     07/30/10     07/07/10               0
 5      07/01/10 to 09/30/10     10/30/10     10/08/10               0
 6      10/01/10 to 12/31/10     01/30/11     01/06/11               0
 7      01/01/11 to 03/31/11     04/30/11     04/13/11               0
 8      04/01/11 to 06/30/11     07/30/11     07/13/11               0
 9      07/01/11 to 09/30/11     10/30/11     10/06/11               0
 10     10/01/11 to 12/31/11     01/30/12     01/10/12               0
 Source: OIG Analysis of FFRs

       According to 28 C.F.R. § 66.20, “Accurate, current, and complete
disclosure of the financial results of financially assisted activities must be
made in accordance with the financial reporting requirements of the grant or
subgrant.” As we discussed in the Internal Control Environment section of
this report, Siskiyou did not reflect the grant expenditures in the grant
account, but instead used estimated expenditures based on the approved
budget amounts to prepare the FFRs. As discussed in the Program Income
section of this report, we identified potential program income that was not
included on the FFRs. Therefore, we determined that the FFRs were not
prepared accurately and recommend that COPS ensure that Siskiyou
implement procedures to base its FFRs on actual expenditures.




                                    - 19 ­
                                        EXHIBIT 6:

                        ACCURACY OF SISKIYOU’S FINANCIAL REPORTS

                                  GRANT 2009-RK-WX-0159

                                                     ESTIMATED
                                                    EXPENDITURES
                    REPORT PERIOD    EXPENDITURES      (GRANT
                  (FROM – TO DATES)     (FFRS)        ACCOUNT)   DIFFERENCE
                 01/01/11 to 03/31/11                     $    51,137         $0    $   (51,137)
                 04/01/11 to 06/30/11                     $    51,137   $ 102,273   $    51,137
                 07/01/11 to 09/30/11                     $    55,739         $0    $   (55,739)
                 10/01/11 to 12/31/11                     $    55,739         $0    $   (55,739)
                                              Totals:3    $213,750      $102,273 $(111,477)
      Source: OIG analysis of Siskiyou’s accounting records

Progress Reports

      Progress Reports provide information relevant to the performance of
an award-funded program and the accomplishment of objectives as set forth
in the approved award application. According to the Grant Owner’s Manual,
these reports must be submitted quarterly, within 30 days after the end of
the reporting periods for the life of the award. We tested the timeliness of
Progress Reports approximately submitted over the past 2 years. As seen in
Exhibit 7, we found that one Progress Report covering the period from
July 1, 2009, to September 30, 2009, was submitted 6 days after the due
date. Since this was an isolated incident, we do not take exception.


 




                                                       
             3
          Differences between the sum of the amounts included in the table and the totals
are the result of rounding.


                                                              - 20 ­
                               EXHIBIT 7:

                       PROGRESS REPORT HISTORY

                         GRANT 2009-RK-WX-0159

          REPORT PERIOD           REPORT        DATE
        (FROM – TO DATES)       DUE DATE     SUBMITTED           DAYS LATE
  1    07/01/09 to 09/30/09      10/30/09     11/05/09              6
  2    10/01/09 to 12/31/09      01/30/10     01/07/10              0
  3    01/01/10 to 03/31/10      04/30/10     04/09/10              0
  4    04/01/10 to 06/30/10      07/30/10     07/07/10              0
  5    07/01/10 to 09/30/10      10/30/10     10/08/10              0
  6    10/01/10 to 12/31/10      01/30/11     01/11/11              0
  7    01/01/11 to 03/31/11      04/30/11     04/13/11              0
  8    04/01/11 to 06/30/11      07/30/11     07/13/11              0
  9    07/01/11 to 09/30/11      10/30/11     10/06/11              0
 10    10/01/11 to 12/31/11      01/30/12     01/10/12              0
  Source: COPS

      We sampled the last four reports to test for accuracy. We tested each
report to determine if the reports contained the required information,
included accomplishments related to community policing, and accurately
reported the data. We found the reports we reviewed to be accurately based
on documentation we reviewed.

Recovery Act Reports

      In addition to normal reporting requirements, grantees receiving
Recovery Act funding must submit quarterly reports which require both
financial and programmatic data. The Recovery Act requires recipients to
submit their reporting data through FederalReporting.gov, an online web
portal. Recipients must enter their data no later than 10 days after the close
of each quarter.

       Siskiyou was responsible for submitting 10 Recovery Act reports from
July 1, 2009, to December 31, 2011. We tested all 10 reports to determine
if the reports were submitted timely. Of the 10 reports reviewed for
timeliness, 3 were submitted 2 to 3 days late. According to Siskiyou’s Fiscal
Officer, if due dates fell on a weekend or a holiday then the due date was
extended. We verified this and we therefore do not take exception to the
late submission of the three Recovery Act reports.




                                    - 21 ­
                                EXHIBIT 8:

                       RECOVERY ACT REPORT HISTORY

                          GRANT 2009-RK-WX-0159

           REPORT PERIOD                REPORT              DATE
         (FROM – TO DATES)             DUE DATE          SUBMITTED   DAYS LATE
 1      07/01/09 to 09/30/09           10/10/09           10/07/09      0
 2      10/01/09 to 12/31/09           01/10/10           01/07/10      0
 3      01/01/10 to 03/31/10           04/10/10           04/09/10      0
 4      04/01/10 to 06/30/10           07/10/10           07/07/10      0
 5      07/01/10 to 09/30/10           10/10/10           10/08/10      0
 6      10/01/10 to 12/31/10           01/10/11           01/06/11      0
 7      01/01/11 to 03/31/11           04/10/11           04/13/11      3
 8      04/01/11 to 06/30/11           07/10/11           07/12/11      2
 9      07/01/11 to 09/30/11           10/10/11           10/12/11      2
 10     10/01/11 to 12/31/11           01/10/12           01/10/12      0
Source: OIG Analysis of Siskiyou’s Recovery Act Report Submissions

       According to Siskiyou's Fiscal Officer and the Assistant Sheriff, Siskiyou
prepared Recovery Act using activity logs and summarized narratives of the
grant-funded deputies’ activities. We compared Recovery Act reports to
activity logs and narratives and we found that the Recovery Act reports were
generally supported by the documentation we received.

Additional Award Requirements

      On September 8, 2009, Siskiyou officials signed assurances that
Siskiyou will abide by 16 special conditions and terms of the grant. We
analyzed documentation to determine whether Siskiyou complied with the 16
special conditions. Other than the deficiencies previously discussed in this
report, we found no significant violations of the special conditions that we
tested during this audit.

Program Performance and Accomplishments

      In the CHRP Application Guide, COPS identified the methods for
measuring a grantee's performance in meeting CHRP grant objectives.
According to COPS, there were two objectives for the CHRP grant program:
(1) to increase the capacity of law enforcement agencies to implement
community policing strategies that strengthen partnerships for safer
communities and enhance law enforcement's capacity to prevent, solve, and
control crime through funding additional officers, and (2) to create and
preserve law enforcement officer jobs.




                                        - 22 ­
       COPS requires a grantee to be able to demonstrate that it is initiating
or enhancing community policing in accordance with its community policing
plan. According to Siskiyou’s community policing plan, budget cuts were
threatening several programs from being reduced or cut. Siskiyou further
stated that the grant would allow it to designate Community Liaison Officers
to patrol areas. The breadth of the Community Liaison Officer position
included working as Public Information Officers in order to report crime
trends and to promote crime prevention tactics. In addition, Siskiyou stated
that it would attempt to enhance its local DARE program, which focuses on
drug and alcohol awareness among children and pre-teens. Finally, Siskiyou
planned to assign personnel to crime trend analysis in the detective unit for
purposes of crime prevention.

      In an effort to understand whether Siskiyou was on track or meeting
grant goals we interviewed law enforcement officials and verified
documentation such as activity logs and narratives. In our interview with
deputies who were retained through federal funding, we learned that they
maintained activity logs. In our assessment of the activity logs, we noted a
deputy logging hours for the local DARE program that ran for a period of
3 months in three different elementary schools. The activity logs indicated
that the deputies were attending neighborhood watch meetings. We
interviewed a grant official and learned that due to fiscal distress Siskiyou
was not able to assign grant-funded personnel to crime trend analysis.
Based on the other activities performed as documented by the activity logs
from 2009 to 2012, we concluded that Siskiyou is on track to meeting the
community policing objective of the grant. However, as discussed in the
supplanting section of this report, we found indications of supplanting which
potentially impacted Siskiyou’s ability to fully meet the second CHRP
objective of creating and preserving law enforcement officer jobs.

Retention Plan

      Special condition number 5 requires that CHRP grant recipients
maintain CHRP deputy positions for a minimum of 12 months after the
conclusion of the grant. We reviewed Siskiyou’s FY 2013 budget projections
and noted that the grant-funded deputies were included in those projections.
Further, we discussed Siskiyou’s plans for retaining the deputies after the
grant period has ended and we did not note any exceptions relating to the
grantee's ability to retain deputies for 12 months following the conclusion of
the grant-funded period. As a result, we did not note any significant
impairments to Siskiyou’s ability to adhere to the CHRP grant retention
requirement.




                                    - 23 ­
Post Grant End Date Activity

      Based on our review of the grant award, the grant has reached its end
date of June 30, 2012. However, we noted that COPS has extended the
grant’s end date from June 30, 2012, to September 30, 2012. As a result,
even though the final FFR, Progress Report, and Recovery Act report were
submitted to COPS on July 9, 2012, COPS stated that the grantee will have
to submit a new final FFR and Progress Report due to the extension of the
grant’s end date. We also verified that there were no late drawdowns
beyond the time period allowed by the Grant Owner’s Manual.

Conclusion

       We found that Siskiyou could not support the crime data it reported on
its application. Based on a sensitivity analysis using COPS’ CHRP award
methodology we determined that the correct crime data would have
prevented Siskiyou from obtaining the grant. In addition, we noted that the
grant account in Siskiyou’s accounting system did not accurately reflect
grant program activities. We also found Siskiyou charged $60,815 in excess
of costs for entry-level positions, which violated CHRP rules. Also, some
timecards for the grant-funded deputies were not properly authorized. We
identified indications of supplanting for 19 months of the grant program.
Further, grant-funded deputies working on Siskiyou contracts with four cities
generated an estimated $252,567 in program income, which Siskiyou did not
appear to use to offset allowable grant expenditures. Finally, we found that
Siskiyou did not base its FFRs on actual expenditures. As a result of these
issues, we provide seven recommendations to COPS and question the
$615,156 CHRP grant.

Recommendations

     We recommend that COPS:

     1.   Remedy $615,156 in unallowable costs related to:

           a.	 The $615,156 grant awarded to Siskiyou based on significant
               inaccurate application data, which affected the suitability of
               the award.

           b.	 Costs totaling $60,815 charged to the grant in excess of
               Siskiyou’s entry-level salary, which was a violation of program
               guidelines.




                                    - 24 ­
     c.	 Grant charges totaling $252,449 that were incurred during
         months when Siskiyou’s on-board law enforcement levels
         exhibited indications of supplanting.

2.	 Ensure that Siskiyou establishes procedures to verify that it
    submits accurate information for future DOJ grant applications.

3.	 Ensure that Siskiyou develops procedures to adequately account
    for future grant fund expenditures in accordance with
    28 C.F.R. Part 66.

4.	 Ensure that Siskiyou establishes procedures to make certain that
    its employees' timecards are properly approved.

5.	 Ensure that Siskiyou establishes policies to account for future
    program income generated by federal grant-funded activities and
    that the resulting revenue is properly applied in accordance with
    applicable regulations.

6.	 Ensure that Siskiyou calculates the net allowable cost for its CHRP
    grant by determining the total allowable costs, verifying the total
    program income earned by its three grant-funded deputies, and
    subtracting the program income from total allowable costs. If net
    allowable costs are below the CHRP grant award of $615,156,
    then Siskiyou may need to return the difference to COPS.

7.	 Ensure that Siskiyou bases its FFRs on actual expenditures rather
    than estimates or budgeted amounts.




                              - 25 ­
                                                             APPENDIX I

            OBJECTIVE, SCOPE, AND METHODOLOGY

      The purpose of the audit was to determine whether costs claimed
under the grant were allowable, reasonable, and in accordance with
applicable laws, regulations, guidelines, and terms and conditions of the
grant. The objective of our audit was to review performance in the
following areas: (1) application statistics, (2) internal control
environment, (3) expenditures, (4) drawdowns, (5) budget management
and control, (6) program income, (7) reporting, (8) additional award
requirements, (9) program performance and accomplishments,
(10) retention plan, and (11) post grant end date activity.

      We conducted this performance audit in accordance with Generally
Accepted Government Auditing Standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provided a
reasonable basis for our findings and conclusions based on our audit
objectives.

       Unless otherwise specified, out audit covered, but was not limited to,
activities that occurred between the start of CHRP grant 2009-RK-WX-0159
on July 1, 2009, through the start of our audit fieldwork on June 4, 2012.
Further, we tested compliance with what we considered to be the most
important conditions of the grant. Unless otherwise stated in our report, the
criteria we audited against are contained in the Grant Owner’s Manual and
grant award documents.

       We did not test internal controls for Siskiyou taken as a whole or
specifically for the grant program administered by Siskiyou. An independent
Certified Public Accountant conducted audits of Siskiyou’s financial
statements for years ending June 30, 2010, and June 30, 2011. The Single
Audit Report was prepared under the provisions of OMB Circular A-133. We
reviewed the independent auditor’s assessment to identify control
weaknesses and significant noncompliance issues related to Siskiyou or the
federal programs it was administering, and assessed the risks of those
findings on our audit.

      In conducting our audit, we performed sample-based testing in four
areas: payroll and fringe benefit charges, Progress Reports, FFRs, and
Recovery Act reports. In this effort, we employed a judgmental sampling


                                   - 26 ­
design to obtain broad exposure to numerous facets of the grant reviewed,
such as unique payroll and fringe benefits adjustments throughout the year.
This non-statistical sample design did not allow projection of the test results
to the universe from which the samples were selected.

       In addition, we reviewed the timeliness and accuracy of FFRs, Progress
Reports, and Recovery Act reports; and evaluated performance to grant
objectives. However, we did not test the reliability of the County of
Siskiyou’s financial management system as a whole. Further, we reviewed
internal controls described in the Internal Control Environment section of
this report. We identified deficiencies in internal controls related to
Siskiyou’s procedures for its grant application process, financial management
system, adherence to the non-supplanting agreement, timekeeping system,
FFRs, and program income.




                                     - 27 ­
                                                                        APPENDIX II

            SCHEDULE OF DOLLAR-RELATED FINDINGS



DESCRIPTION                                                             AMOUNT PAGE
UNALLOWABLE QUESTIONED COSTS16

 Inaccurate Application Data                                        $    615,156       6

 Overstated Base Salary and Fringe Costs                                  60,815       11

 Indications of Supplanting                                              252,449       17

Gross Questioned Costs17                                             $ 928,420

      Less: Duplication                                             ($ 313,264)

NET QUESTIONED COSTS                                                 $ 615,156




______________
      16
          Questioned Costs are expenditures that do not comply with legal, regulatory, or
contractual requirements, or are not supported by adequate documentation at the time of
the audit, or are unnecessary or unreasonable. Questioned costs may be remedied by
offset, waiver, recovery of funds, or the provision of supporting documentation.
      17
          Some costs were questioned for more than one reason. Net questioned costs
exclude the duplicate amount.
                                                                                            APPENDIX III

  THE SISKIYOU COUNTY SHERIFF’S DEPARTMENT
     RESPONSE TO THE DRAFT AUDIT REPORT




                                                     Sheriff
July 2, 2013

Via E-Mail and U.S. Mail:           david.j.gaschke@usdo i.gov
                                    melonie.shine@usdoi.gov

David J. Gasch ke
Regional Audit Manager
San Francisco Regional Audit Office
U. S. Department of Justice
1200 Bayhill Drive, Suite #20 1
San Bruno, CA 94066

Subject:       Siskiyou County Response to OIG Grant Audit Findings
RE:            CHRP #2009RKWX0159

Dear Mr. Gaschke,

Siskiyou Counly respectfu ll y disagrees with majority of the grant findings as issued by the Office of the
Inspector General, (O IG) in its drdft audit report da ted June 11,2013.

In 2008/2009, the Siskiyou County Sheriff's Office (SCSO) management comprised of former Sheriff and
Undersheriff along with adm inistrative support slaff prepared their grant app lication for this grant in a short
period of time. As you may recall, during that particular time period, the Obama Adm inistrat ion and congress
adopted a stimulus package and local governments such as Siskiyou County were developing gra nt
app lications to submit for consideration by federal officials. Ce rta inly there is no excuse for inaccurate
statistics or omissions; however, the submission of our grant application, while done expeditiously due to time
and resource constraints, was done to the best of the ability of those employees of the department previously
em ployed here and there was absolutely no effort whatsoever to mislead or ga in an unfair competitive
advantage. In subMance, the individual and collective statistics validated a serious crime problem in Siskiyou
County and I feel ge nerally met the stringent requirements o f the grant. (Refer to Attachment "A")

After a thorough review of the DIG Grant Audit Findings, I am convinced that any material or statistical facts
submitted to the Office of Comm uni ty Oriented Policing SelVices was done so with reasonable diligence and
no intent on the part of th is Department was initiated or condoned to de libe rately misrepresent any
information submitted in the grant application. I firmly believe that the intent of the Community Oriented
Policing SelVices (COPS) Hiring Recovery Program (CHRP) grant, met the criteria specified in the grant:

    • The grant preselVed and created jobs and promoted economic recovery (3 deputy positions).
    • The grant assisted those impacted the most by the recession (laid-off deputies and crime victims).
    • The gran t increased economic efficiency and technologica l advances through community ori ented
       policing and retention of tra ined personnel capable of using various departmental tech nological

                                                       1
                  305 Butte Street - Yreka. CA 96097-3004 • (530) 842·8300' Fax (530) 842--8356




                                                    - 29 ­
       programs (e.g., compUier reporting system, computer aided dispatch, audio-visual devices, radar,
       weapons, and use of force tools, such as Tasers, etc.).
    • The retention of the three deputies contributed to infrastructure and long-term economic benefits
       through salary, enforcement, community oriented policing. and special programs.
    • Tbe grant helped to stabilize the SCSO fiscal budget and helped to minimi1.e reductions in essential
       crime prevention and response services.
    • Most importantly, the grant promoted the reten tion of peace officers needed by the citizens of Siskiyou
       County.

Recommendation 1(8): Application Statistics ( Ina(:cur-ate Application Data County: Do Not Concur

"The $615,156 grant awarded to Siskiyou based on slgnlftcant inaccurate application data, which
atTected the suitability or the award." (t {a})

The OIG Audit Findings revealed that the Siskiyou County Sheriff's Office provided inaccurate data
on its application.

The County of Siskiyou has not had the opportunity to review and comment as to the methodology used by
COPS to score and rank each applicant based on the key data submitted by !be applicant. Furthennore,
Siski you officials have not been privy to Ihe scoring and ranking numbers of other applicants 10 dete rmine
what effect, if any, the discrepancies would have made in crealing an unfair competitive advantage amo ng
applicants, including Siskiyou County.

It appears from our analysis that the Siskiyou CHRP application does indeed include some inaccurate data;
however, it is uncertain as to how those discrepancies would produce the outcome as specified in the OIG
find ings. It is also our opinio n that the discrepancies do not rise to the level of the orG recommendation in
remitting back to COPS the entire grant award. The County of Siskiyou hereby respectfully requests
submission or lhe COPS methodology, scoring and ranking to a third party (mediator) for review and opinion.

Recommendation Hbl;         Expenditures County; Do Not Concur

"Costs totaling $60,815 charged to the grant in excess or Siskiyou's entry level salary, which was a
violation of program gu idelines." (1{b})

The OIG stated that Siskiyou County Sheriff's Office "did not include the entry-level salary amount for
its grant-funded deputies and the corresponding fringe benefits in its application." The OIG is
questioning the costs tolaling $60,815.

As mentioned in our initial response memorandum, SCSO did not hire entry level personnel with the fu nds of
this grant. SCSO retained three (3) deputies who would have been laid-off had this CHRP grant nol been
received. The OIG auditors properly concluded that the SCSO staff did not ask for a waiver for this
requirement; however. the fact remains thai the deputy sheriff II cla.'~sification was the only entry level used
by the Sheriff's Office allha! time. Due to personnel tum-over and related turbulence, it was nOI feas ible to
hire entry-level personnel in a timely fashion. The Department could nOI afford to send newly- hi red, non­
POST certified personnel to a POST Academy due to salary, training, travel, and subsistence costs.



                                                      2




                                                  - 30 ­
Although SCSO failed to request a waiver, this salary step was submit ted in good faith and was not
questioned at the lime the CHRP grant was submitted. There is also an indication in the COPS policy that a
waive r may have been granted had it been requested by SCSO. This discrepancy, while accurate when
reading the gra nt criteria, is unreaso nable based on the hiring practices of the Department at the time the gra nt
was submitted. Any oversight lapse related to this detail was inadverte nt a nd reflected the reality of the
application period .

• "o."m""m '•• ••UIU(£d",_"... ..... ••"'""mo.,,:
R.       •• d.a.ti.o       !:I!o "".mLI"            County - Do Not Concur

"Grant charges totaling $252,449 that was Incurrcd during months when Siskiyou' s on-board law
enforcement levels exhibited indications of supplanting." (I {c})

The 01G stated that the Siskiyou County Sheriffs Office failed to report to COPS earned income,
based on the premise that the department received inCGme from the deputies assigned to this grant
from other law enforcement contnlcts ror the a mount or$252,449.

Siskiyou County disputes this finding. Whereas SCSO has law enforcement contracts, and some of the
deputies in this grant contributed a portion of the hours attributed to the billing in these contracts, it is our
belief that these hours were inconsequential, as the contracts stipulate a threshold of hours required to meet
the contract obligations, and if we s ubtracted the hours attributed by the deputies assigned to this grant from
the total hours billed, we would have received the fixed contract amount from almost all of the contract cities.

1be Siskiyou County Sheriff's Office contracted for a total of 18,450 hours for the fisca.I year 2009/20 10 but
we actually worked 22, 489 hours. The deputies assigned to this grant contributed 2,068.5 hou rs of the total
hours worked. If you subtract their 2068.5 hours from the 22,489 hours worked, we sti ll have well over the
contract hours required under our contracts:

(2009/2010)                  TOTAL HOURS WORKED                             22,489.0
                             COPS DEPlITIES HOURS                            ·2,068.5
                             SUB-TOTAL                                      20,320.5
                             TOTAL HOURS CONTRACfED:                        18,450

During the fiscal year of 2010/2011, the Siskiyou County Sheriff's Office contracted for a tolal of 15,600
hou rs but we actuall y worked 20,008 hours. The deputies assigned to this grant contributed 2,596.5 hours of
the total hours worked. If yo u s ubtract the ir 2596.5 hours from the 20,008 hours worked, we still have well
over the contract hours req uired under our contracts:

(20 10!20 II )               TOTAL HOURS WORKED                             20,008.0
                             COPS DEPUTIES HO URS                            -2.596.5
                             SUB-TOTAL                                      17,411.5
                             TOTAL HOURS CONTRACTED:                        15,600

During the fiscal year of 2011/2012, the Siskiyou County Sheriff's Office contracted for a total of 15 ,600
hours again but we actually worked 18,023 hours. The deputies assigned to this grant cont ribu ted 1.514.5
hours of the total hours wo rked. If you subtract their 1,514.5 hours from the 18,023 hours worked, we still
have well over the contract hours requ ired under our contracts:


                                                        3




                                                    - 31 ­
(201112012)                 TOTAL HOURS WORKED                            18,023.0
                            COPS DEPUTIES HOURS                            ·2,596.5
                            SUB-TOTAL                                     17,411.5
                            TOTAL HOURS CONTRACTED:                       15,600


Recommendation He); Supplanting County - Do Not Concur

"Grant cbarges totaling $252,449 that was incurred during months when Siskiyou's on-board law
administration levels exhibited indications of supplanting." (I{c})

The OIG stated "our analysis revealed that Siskiyou was one to eight positions below the baseline from
January 2010 10 June 2011 and May 2012 (8 lotal of 19 months)" Additionally, the OIG claims we did
not provide adequate documentation 10 support the number of sworn law enfon:ement positions that
were cut or would have been cut by budgetary reductions.

Siskiyou County disputes Ihis finding. T here was a surge of vacant positions created by unanticipated
personnel vacancies. For example, between October 2(K)9 and October 20 12, the Department lost
approximately 20 sworn personnel. It is not unCQmmon to spend up to flix to eight months to recru it, test, and
hire (includes written tests, oral board, physical agility test, background investigation, physical examination,
polygraph test {prov isional} and other screening c riteria). The large number of pcrsonnelleaving at the time
adversely impacted the Department's ability to hire enough personnel to maintain staffing levels during
various limes during the CHRP grant period. The department was also impacted by departu res of personnel
due to Global War o n Terrorism military leave and those seeking overseas contractor jobs (Attachment B).

SCSO had three sworn personnel medically retire from October 2009 to 201 1, one unexpectedly died in April
2011, th ree retired between the period of June 2010 to February 2011, and five resigned during the period
January 2010 10 October 20 12. Due to fiscal shortages in Siskiyou County's budget, the County laid-off6
sworn positions in July 2010. All but one of these personnel was hired back by November 2010. (Refer to
the attached - Attachment B). The reduction of peNionnel over the last approximately five yeaNi has resulted
in a 30+% reduction in sworn personnel. At the same time, Siskiyou County has some of the highest child
abuse, domestic abuse, alcohol abuse, drug abuse, and elder abuse rates in the state (Attachment A). For
example, nearly 30% of Siskiyou County children live in poverty and child abuse rates are three-times the
state average (31.7% per 1,000 Tate compared 10 state average of 9 per 1,000) (Attachment A). According 10 a
"Siskiyou County A Snapshot in Time 2010" (www.klamalh.org/education/siskiyoudemographics.php),due
to the declining timber, mining and ranching industries, Siskiyou County has higher rates for all violent crime
(aggravated assaults, forcible rape and robbery) when compared to Los Angeles County. 11% of seniors aged
60 and over have been abused and alcohol and drug rates are at epidemic proportions (AttaChment C). Youth
10 to 17 years of age account for 13% of arrests fOT drug-re lated violations of law.

According to the 20 12 Siski you County Wide interagency Orug Task Force (SCINTF) report,
methamphetamine has again emerged as the prevalent illicit drug in Siskiyou County, comprising 51. 1% of
the task force's arrests. Marijuana cultivation, drug cartels and re-emergence of heroin are major problems
for SCSO and other agencies. Cocaine, psilocybin, prescription drugs, hashish, and LSD we re also seized.
Methamphetamine seizures during 20 11 exceeded 2010 figures (4458 grams vs. 5,909 grams, for 2011).


                                                      4




                                                  - 32 ­
Marijuana seizurc,., increased from 324.76 grams in 2010 to 2 15,809.97 grams during 2011 . Interstate 5 and
US HWY 97 8re also well known drug trafficking corridors which supplies all major northwest cities with
illicit drugs, primaril y smuggled from Mexico and Central America. (Attachment C). 1be reason these
statistics are important is because duri ng my 35+ years of law enforcement experience, il is my belief tha t
crime has never been worse and illicil drugs are creating, direcdy or indirectl y, about 70% of the crime
incidents investigated by SCSO. Without the CHRP grant, DARE (prevenlion) and proactive enforcement
(SCINTF and "other" enforce ment) would not have been nea r as feasible.

Secondarily, the County also operated unde r the premise that other personnel not assigned to this gntnt
contributed to the grant's program Objectives and these services were in-kind, and in fact exceeded the
number of hours they att ributed to any other law enforcement contracts the department billed for; therefore
there was no supplanling of federal funds and grant objectives were not only achieved, but exceeded
qualitatively and quantitatively. (Refer to Attachment D).

Rerommendation 2: Submitting Accurate Information:                County: Concur

"Ensure that Siskiyou establishes procedures to verify that it submits accurate information for futu re
DOJ grant applications." (2)

The OIG wants Siskiyou County to establish procedures to ve rify that it submits atturate inCormation
Cor Cuture grants.

The Siskiyou County Sheriff's Office has implemented a review process that will ensure that the future data
submitted fo r federal or state grants are completed accurately and reviewed at multiple levels. For example,
the department's budget is now reviewed afte r each two-week pay period and exel."Utive officers (Sheriff and
Undersheriff) of the department and fiscal offi cer regularly review progress on all existing grants.

Recommendation 3: Developine: Adequate Accounting                 County - Concur

" Ensure that Sis kiyou develops procedures to adeq uately acrou nt ro r future grant fund expenditures in
acrordance with 28 C.F,R. Part 66.'" (3)

The OIG wants Siskiyou County to ensure we develop proced ures to adequately account for ruture
grant fund expenditures in accordance with 28 C.F.R. Part 66.

The Siskiyou County Sheriff's Office has developed a process to ensure that grant fund expenditurc,'1 are
accu rately accounted for pursuant to the requirements contained in 28 C.ER. Part 66.

Recommendation 4:     Ti me~ heet   Approvals   County - Concur

" Ensure that Siskiyou esta blis hes procedures to make certain that its employees' timecards are
propertyapproved_" (4)

The OIG stated that they found a significa nt deficiency in our department's timesheet approval.
Specifically, that the depa rtment is too large ror one department head to have personal knowledge or


                                                      ,



                                                  - 33 ­
work each employee is performing. T he OIG also found a material weakness as supervisors were not
a pproving their employee timesheets.

The Siskiyou Count y Shedfrs Office has adopted a procedu re to have timcsheets approved at three distinctive
levels -the employee, the employee's supervisor, and a department manager. This procedure has built in
more accountability and control. The OIG audit indicates that the Progress Reports (p. 20), Recovery Act
Reports (p. 2 1), Additio nal Award Requ irements (p. 22), and Progra m Performam;e Accomplishme nts (p. 22
- 23), lind Retention Plan (p. 23), and Post End Date Activity (p. 24) met or exceeded CHRP requi rements,
which indicated that while imemal controls were inconsistent during some periods of the grant, the
requireme nts for public safety and comm unity oriented policing were met and the intent of the grant largely
fulfilled .

It appears that although the SCSO staff cannot prove that all times heels were approved, these timesheets were
retroactively reviewed and approved. Although SCSO had a major turn-over in executive manage ment, most
of the supervisors and mid-level managers involved in the fi eld operation supported by the CHRP grant were
still employed by the Department, and these leaders validated the timesheets and aforementioned accuracy of
the reports summarized in the OIG document.

Recommendation 5: froeram Income Accounting:                 County - Do Not Concur

"The OIG wants Siskiyou County 10 establish policies 10 account for future program income generated
by fed eral grant-Cunded activities and that the resulting revenue is prope rly applied in acrorda nce wit h
applicable regulations." (5)

The S iskiyou County Sheriff' Office has reasonabl y determined that supplanting did not take place during the
duration of this grant in our designated conlract cities. This is verified the fact that the department exceeded
the hours required pursuant to the respective contracts. This essentially refute..<; the fi ndi ngs that there was a
supplanti ng fund discrepancy. The department agrees that in the future , if possible, specific personnel
assigned 10 grant community orie nted policing positions should be more closely tracked and that program
fu nding be separately and defi nitively tracked and tabulated on a regular basis. Currently, the department has
implemented a plan to review each program fund site or line item every two-wee k pay period which should
provide a clear and definitive fiscal trail and supporting documentation.

It should be added that the audit indicated that the department generally met or exceeded the CHRP grant
requirements and a high. level of safety, service and comm unity oriented policing were provided to the
citizens of Siskiyou County. AlthOUgh at first glance it appeared the department supplanted grant funds and
program income, this was not the case because of the exces...ive hours allocated 1 the contract cities during
                                                                                  0
the grant reporting period.

Recommendation 6: Net Allowable Cost:                County - Do not Concur

"The OIG want Siskiyou County to ensure that we calculate the net IIllowable cost for its CHI"R grant
by determining the total a llowable costs, verUylng the total program Income earned by its three grant­
runded deputies, and s ubtracting the program Income from the allo wa ble costs. If net allowable costs
are below tbe CHRP grant awa rd of$615,156 tben we (Siskiyou) may need to return the difference to
COPS." (6)

                                                        ,



                                                    - 34 ­
The department calculated the difference between the grant funding and program income and the excessive
hours allocated to the contract cities indicate that funds were not supplanted and the citie.." received an excess
number of hours which, when subtracted from the program income, does not indicate any supplanting of
funds. Specific hours and statistical data are contained in paragraphs on pages 2 thTU 6 above.

Siskiyou County responded to this recommendation in l(b) and in recommendation l(c).

Recommendation 7: Funds for Reimbursement:                  County - Concur

The OIG wants Siskiyou County to base future funds for reimbursement on actual expenditures rather
than estimates or budgeted amounts.

The Siskiyou County Sheriff's Office has establis hed a new policy which will require specific expenditures be
developed and tracked each pay period in lieu of program estimates which may not reflect accu rate
expenditures in support of or against the department. Accounting of fiscal funds will be closely monitored
and separate calculations compiled on a regular basis to preclude a recurrence of the less than totally accurate
process used by the department's fiscal officer.

Conclusion:

Siskiyou County recognizes that there were some documentation and accountability miscues as.."ociated with
the CHRP grant application and there were some problems with the Department 's manage ment of the grant
statistical data; however, some data such as the motor vehicle thefts and larceny when combined closely align
to the true crime problem in Siskiyou County at the time of the application and the overall application
supported tates of violent crime, equal to most jurisdictions we have surveyed. The poverty statistic and rates
of violent crime, child abuse, domestic abuse, elder abuse, and alcohol and drug usage rates are also
compelling when you consider that Siskiyou County has some of the most alarming and troubling statistical
totals in the entire State of California.

The Siskiyou County Sheriff's Office has lost approximately 30% of its personnel (sworn and unsworn) in
recent years and last year suffered one of the highest homicide rates in our history. Siskiyou Couoty also has
one of the largest counties geographically in the state and our communities are economically depressed and
crime in many categories, especially related to illicit drugs and alcohol use, is rising at alarming rates.

We respectfully ask that the COPS staff consider the information contained in this report and 1 the extent
                                                                                                  0
possible, relieve SiSkiyou Counly of any liability associated with this grant. There is ample evidence to
support the premise that the major objectives of the grant were met by Siskiyou County and the department
provided a high level of safety and service to the citizens we serve with the help of this grant. This included
prevention and crime response strategies which worked with the help of the COPS granl. Any penalty
assessed to the county would be devastating and would adversely impact public safcty now and for ycars to
come.

Thank you fo r your consideration of our input and analysis of the OIG report.




                                                       7




                                                   - 35 ­
Should you have any questions, please contact me or Undersheriff John Villani, al (530) 842-8300.

Respectfully Submitted,



   <1$10. ~ 11k'
on E. ~pey, S heriff -

       elonie V. S hine
                             ,
                          oron


     U.S. Departme nt Of Justice
     Office of Community Oriented POlicing Services
     Grant Operation Directorate/Grant Monitoring Division
     145 N Street, N.E.
     Washington, DC 20530




                                                    8




                                                - 36 ­
                                                                                                   APPENDIX IV

OFFICE OF COMMUNITY ORIENTED POLICING SERVICES’
       RESPONSE TO THE DRAFT AUDIT REPORT

                    u.s. DErARTMEN T O F J USTI C E
                    O F HCE UF CUMMUN I TY OIl. I !:./II T 1:U P ULIC I NG SERV I CE:'

                    Crnnt Op~l":1dons D ir~cto ra[e/Gram Monitoring Division
                                                                                                    COPS
                    145 N Street. N.E .. Washingto n. DC 20530



                                                   MEMORANDUM


    To:              David J. Gaschke
                     Snn Francisco Regional Audit Manager
                     omL'C of Ihc Inspecto r GCllcm\
                                               ~

    rrom:            Melonie V. S hin~
                     Manogement Analyst

    Dllte:           Jul y 11, 2013

    Subj eel:         Response 10 thc Draft Audit Rcpon for        Si~kiyou   County. California

          This memorandum is in TCsponsc lO you r June 11 . 20 1] dmft lIud it rcpon on the COPS
    C HRP Granl #2009RK WXOI59, awarded to Siskiyou County Sheriff's Depa rtmenl (Siskiyou).
    For CII:;(" orrcview. each aud it recom m endation is stated ill bold a nd unde rl ined. followed by a
    response from COPS concerning the recommendat ion.

    Recommen dat ion I • Rcmt'dy $6 15,1 56 in unlillow ll ble cos ts rcllllcd to:

             II. The $615.1 56 2r11ntllwllrdcd tu Siskiyou based on significant inllc!;"u ratc
                  a pplita lion d a la. wbith . rredtd t he suitability of the   a~· Il [lJ.


             COPS concul':'ll hat grwllccs should s ubmi t Ilccurote app lication dll to.

             b.   Co~U   lotaling S60,fll 5 c harged to the grant in ClleCll5 o f S is kiyo u 'll e ntry leyel
                  ~alary ,whic h wa~ a violat ion or prog r a m g uidelines.

             COPS concurs that grant.. should on ly charge entry \evel slllary to the grant.
                                     -cs

             c. Grant        ch a Tge.~   totaling 5252,449 that were incurrt'd d uring months when
                  S i~ kh'o u'~   on-boa rd la w e nforceme nt lcyeh ex hibited indications of s upplanting.

             copS concurs that grantces :sho uld not :supplantlocally-fundcd office r positions w ith
             grllnt-runded positions.

     Planned Action

             COPS will request Ihe supponing docu mentati on thaI Siskiyou provided to the O IG
     audiloD to a:;:;c:;s the potelllial impact of the inacc urate application data. COl'S will attempt to
     use the accurate dllin to re-score the applications and determine if Siskiyou would have received


     ADVANC I NG PU B LI C SAF ETY TH ROUG H CO MM UN I TY PO LI C I NG
                                                           *
David J. Gaschke
San Francisco Regional Audit Manager
Office of the Inspector General
July 11 ,20 13
Page 2


an award. COPS will request documentati on fro m Siskiyou conceming the costs charged to the
b'l'ant in excess of entry-level salary. COPS will review Siskiyou's staffmg level s to determine if
supplanting occurred.

        COPS will work with Siskiyou to remedy any gTant funds that must be repaid due to the
issues above.

Request

Based on the planned action, COPS requests resoluti on of Recommendation I.

Recommendation 2 - Ensure Ihal Siskiyou establishes procedures to verify that it submits
accurale information for future DOJ grant applications.

COPS concurs that grantees should submit accurate information for DOJ grant applications.

Planned Action

       COPS will review the procedures that Siskiyou establ ished to ensure that accurate
information is submitted for future DOJ grant appli cations.

Request

Based on the pl arUled action, COPS requests resolution of ReconUllendation 2.

Recommendation 3 - Ensure that Siskiyou develops procedures to adequately account for
future grant fu nd expendilures in accordance wilh 28 C.F.R. ParI 66.

COPS concurs that grantees should adeq uately account for grant expenditures in accordance wi th
28 C.F.R. Part 66.

Plnnned Action

        COPS will review the procedures that Siskiyou developed to ensure that grant fund
 expenditures are in accordance with 28 C.F. R. Part 66.

 Request

 Based on the planned action, CO PS requests reso lution of Recommendation 3.




                                             - 38 ­
David J. Gaschke
San Francisco Regional Audit Manager
Office of the Inspector General
July 11 , 2013
Page 3

Recommendation 4 - Ensure that Siskiyou establishes procedures to make certain that its
employees' timecards arc properly approved.

COPS concurs that grantees shou ld ensure that employees ' timecards are properly approved.

I'lanned Action

        COPS will review the procedw'es that Siskiyou developed to ensure that employees'
timecards are properly approved.

Request

Based on the planned action, COPS requests resolution of Recommendation 4.

Recommendation 5- Ensure that Siskiyou establishes policies to account for future
program income generated bv federal grant.funded activities and that the resulting
revenue is properly applied in accordance with applicable regulations.

COPS concurs tbat grantees should properly track and report program income generated by
grant-funded activities.

Planned Action

       COPS wi ll review the policy that Siskiyou established to track and report future program
income generated by federal grant-funded activities.

Request

 Based on the planned action, COPS requests resolution of Recommendation 5.

 Recommendation 6 - Ensure that Siskivou calculates the net allowable cost for its CHRP
 grant hy determining the total allowable costs, verifying the total program income earned
 by its three grant.funded deputies, and subtracting the program income from total
 II110wabie costs. If net allowable costs are below the CHRP grant award of $615,156, then
 Siskiyou may need to return the difference to COPS.

 COPS concurs that grantees should receive net allowable costs as a result of program income
 received due to grant-funded activities.

 Planned Action

       COPS will request that Siskiyou calculate and support the net all owable cost for the
 CHRP grant based on the program income received for the three grant-funded positions.




                                           - 39 ­
David J. Gaschke
San Francisco Regional Audit Manager
Office of the Inspector General
July II, 20 13
Page 4


        COPS will work with Siskiyou to remedy any grant funds that mllst be repaid due to the
issue above.

Request

Based on the planned action, COPS requests resolution of Recommendation 6.

Recommendation 7 - Ensure that Siskiyou bases its 'FFRs on actual expenditures rather
than estimates or budgeted amounts.

       COPS concurs that grantees should base the FFRs on actual expenditures.

Planned Action

        COPS will review the policy that Siskiyou established to ensure that FFRs are based on
actual expenditures instead of estimates or budgeted amounts.

Request

       Based on the planned action. COPS requests resolution ofReeommendati on 7.

        COPS considers Reeommcodations I through 7 resolved, based on the plarUled act ions
shown above. In addition, COPS requests written acceptance of the determination from your
office.

         COPS would like to thank you for the opportunity to review and respond to the draft
aud it report. [fyou have any questions, please contact me at 202-6 16· 8124 or via e-mai l:
melonie.shine@usdoj.gov.


cc:     Loui se M. Duhamel, Ph.D. (copy provided electronically)
        Justice Management Division

        Mary T. Myers (copy provided electron icall y)
        Justice Management Division

        George Gibmeyer (copy provided electronicall y)
        Grant Monitoring Division

        Tom Odom
        Siskiyou County Board of Supervisors




                                           - 40 ­
David J . Gaschke
San Francisco Regional Audi t Manager
Office of the In spector General
Ju ly 11 , 2013
Page 5

       Jon E. Lopcy
       Sisk iyou Co unty Sheriff's Department

       Grant File: CHRP #2009RK.WX0 159

       Audit File


OR!: CA04700




                                          - 41 ­
                                                             APPENDIX V

              OFFICE OF THE INSPECTOR GENERAL

             ANALYSIS AND SUMMARY OF ACTIONS

               NECESSARY TO CLOSE THE REPORT


       The OIG provided a draft of this audit report to Siskiyou and OJP.
Siskiyou’s and OJP’s responses are incorporated in appendices III and IV of
this report, respectively. The following provides the OIG analysis of the
responses and summary of actions necessary to close the report.

Recommendation Number:

1.	 Resolved. COPS concurred with our recommendation to remedy
    $615,156 in unallowable costs related to inaccurate application data,
    personnel costs that exceeded the allowable entry-level rate, and
    indications of supplanting. In its response, COPS stated that it will
    request the supporting documentation that Siskiyou provided to us to
    assess the potential impact of the inaccurate application data. COPS
    will attempt to use the accurate data to re-score the applications and
    determine if Siskiyou would have received an award. Also, COPS stated
    that it will request documentation from Siskiyou concerning the costs
    charged to the grant in excess of entry-level salary. It will also review
    Siskiyou's staffing levels to determine if supplanting occurred. Finally,
    COPS will work with Siskiyou to remedy any grant funds that must be
    repaid due to the issues relating to this recommendation.

    Siskiyou in its response did not concur with recommendations 1a, 1b,
    and 1c. We address Siskiyou’s response to these recommendations as
    follows:

    1a. In its response, Siskiyou acknowledged that its application data was
        inaccurate, but stated that there was no effort to mislead or gain an
        unfair competitive advantage. In our report, we make no mention
        of an intent on the part of Siskiyou to mislead. Instead, we discuss
        in our report that we identified inaccurate statistics that Siskiyou
        submitted to COPS, which resulted in a grant being awarded to
        Siskiyou.

        Siskiyou further stated that “. . . it is uncertain as to how those
        discrepancies would produce the outcome as specified in the OIG
        findings.” Siskiyou also requested that COPS’ methodology,
        scoring, and ranking be provided to a third party (mediator) for


                                   - 42 ­
          review and opinion. Since COPS determined the award
          methodology and is responsible for closing the audit
          recommendation, requests regarding that methodology should be
          addressed to COPS.

          Siskiyou also stated that “. . . it is [Siskiyou’s] opinion that the
          discrepancies do not rise to the level of the OIG recommendation in
          remitting back to COPS the entire grant award.” Our audit report
          questioned the grant on the basis of Siskiyou’s inaccurate data,
          which was significant enough to affect the suitability of the award.
          COPS may remedy those costs in a variety of ways, including
          additional documentation, recovery of funds, offset, or other
          remedies. This recommendation can be closed once we determine
          that COPS has adequately remedied the $615,156 in grant funds
          awarded based on inaccurate application data, which affected the
          suitability of the award.

     1b. In its response to recommendation 1b, Siskiyou stated that it
         “. . . did not hire entry level personnel with the funds of this grant.”
         Furthermore, it stated: “[t]he OIG auditors properly concluded that
         the Siskiyou County Sheriff’s Department staff did not ask for a
         waiver for this requirement; however, the fact remains that the
         deputy sheriff II classification was the only entry level used by the
         Sheriff’s Office at that time.” As a matter of clarification, our report
         addresses only Siskiyou’s adherence to the terms and conditions of
         the grant – those terms and conditions that Siskiyou agreed to
         comply with when it accepted the grant award. Those same terms
         and conditions included a requirement that costs above entry-level
         officer salaries not be charged to the grant. This recommendation
         can be closed once we determine that COPS has adequately
         remedied the $60,815 in questioned costs charged to the grant in
         excess of Siskiyou officers’ entry-level salaries.

    1c.	 In its response, Siskiyou stated that it disputes this finding
         regarding indications of supplanting.18 Specifically, it stated that it
         experienced an unanticipated surge in personnel vacancies,
         estimating that it lost approximately 20 employees between October
         2009 and October 2012. It also cited delays in filling those
____________________
     18
         In its response to recommendation 1c., Siskiyou included a discussion of contracts
related to providing law enforcement services to several cities. However, that information
relates to recommendation number 6 involving program income. Therefore we address that
information in our analysis of that recommendation. This recommendation is based on
indications of supplanting, which is addressed here.



                                          - 43 ­
vacancies due to the time it required to recruit and test
the candidates. Siskiyou in its response stated: “[t]he large
number of personnel leaving at the time adversely impacted the
Department’s ability to hire enough personnel to maintain staffing
levels during various times during the CHRP grant period.”
However, as we note in our audit report, we incorporated into our
analysis a 5 percent vacancy rate, or approximately 3 positions, for
normal personnel turnover. Further, we verified that this was an
appropriate rate based on information Siskiyou provided which
indicated that it experienced an average vacancy rate of 5 percent
before receiving the grant. In consideration of the non-supplanting
agreement Siskiyou agreed to when it accepted the grant award
from COPS, we consider vacancies in excess of the target level
shown in Exhibit 4 as indications of supplanting.

Siskiyou also estimated that the reduction in personnel over the last
5 years resulted in the departure of over 30 percent of its sworn
personnel. Siskiyou also cited budget shortfalls for some of its
reductions, stating that “[d]ue to fiscal shortages in Siskiyou
County’s budget, the County laid-off 6 sworn positions in July 2010.
All but one of these personnel was hired back by November 2010.”
As we discuss in our report, from FY 2010 to FY 2012 Siskiyou’s
Board of Supervisors discussed budgetary reductions. We asked
Siskiyou officials to provide us with evidence of how many sworn
law enforcement positions would have been affected by the
budgetary reductions. We were not provided with adequate
documentation to support the number of sworn law enforcement
positions that would have been adversely affected by the budgetary
reductions. Even though Siskiyou stated in its response that budget
cuts translated into the elimination of six sworn law enforcement
positions, the latest evidence we were provided in March 2013
indicated that the adjusted budget for personnel should have been
sufficient to cover the Siskiyou County Sheriff Department’s
personnel expenses in FY 2010. Siskiyou’s response contradicts this
evidence and Siskiyou did not provide adequate documentation in
its response to support the claim that six sworn positions were
reduced because of budget reductions. Further, our supplanting
analysis target rate excluded two to four positions marked “frozen”
on Siskiyou’s budget projections, as well as three positions for the
5 percent allowance. We did not receive evidence from Siskiyou
that additional positions were frozen. As a result, it was clear to us
that the positions that fell below the target exceeded the positions
Siskiyou identified as layoffs.



                           - 44 ­
        In addition, Siskiyou stated in its response that “the
        County . . . operated under the premise that other personnel not
        assigned to this grant contributed to the grant’s program objectives
        and these services were in-kind, and in fact exceeded the number
        of hours they attributed to any other law enforcement contracts the
        department billed for; therefore there was no supplanting of federal
        funds and grant objectives were not only achieved, but exceeded
        qualitatively and quantitatively.” We were not provided
        documentation to support the aforementioned efforts made by
        Siskiyou for the in-kind services. Even if Siskiyou had provided
        evidence of in-kind services, the fact would not change that the
        discrepancy between the number of sworn officers funded by the
        local budget and the total number of officers that were on-board
        during the grant period.

        This recommendation can be closed once we determine that COPS
        has adequately remedied the $252,449 in question costs for
        charges incurred during months when Siskiyou’s on-board law
        enforcement levels exhibited indications of supplanting.

2.	 Resolved. COPS and Siskiyou concurred with our recommendation to
    ensure that Siskiyou establishes procedures to verify that it submits
    accurate information for future DOJ grant applications. Siskiyou stated
    that it has implemented a review process that will ensure that future
    data submitted for federal or state grants are completed accurately and
    reviewed at multiple levels. COPS stated that it will review those
    procedures to ensure that Siskiyou submits accurate information for
    future DOJ grant applications.

    This recommendation can be closed once we receive those procedures
    and determine that COPS has ensured that Siskiyou has established
    procedures to verify that it submits accurate information for future DOJ
    grant applications.

3.	 Resolved. COPS and Siskiyou concurred with our recommendation to
    ensure that Siskiyou develops procedures to adequately account for
    future grant funds expenditures in accordance with 28 C.F.R. Part 66.
    Siskiyou stated that it has developed a process to ensure that grant
    fund expenditures are accurately accounted for pursuant to the
    requirements contained in 28 C.F.R. Part 66. COPS stated that it will
    review the procedures that Siskiyou developed to ensure that grant fund
    expenditures are in accordance with 28 C.F.R. Part 66.




                                   - 45 ­
    This recommendation can be closed once we receive those procedures
    and determine that COPS has ensured that Siskiyou has developed
    procedures to adequately account for future grant fund expenditures in
    accordance with 28 C.P.R. Part 66.

4.	 Resolved. COPS and Siskiyou concurred with our recommendation to
    ensure that Siskiyou establishes procedures to make certain that its
    employees’ timecards are properly approved. Siskiyou stated that it has
    adopted a procedure to have timesheets approved at three distinctive
    levels – the employee, employee's supervisor, and a department
    manager. COPS stated that it will review the procedures that Siskiyou
    developed to ensure that employees' timecards are properly approved.

    However, Siskiyou also stated that “[t]he OIG audit indicates that the
    Progress Reports, Recovery Act Reports, Additional Award
    Requirements, and Program Performance Accomplishments, and
    Retention Plan, and Post End Date Activity met or exceeded CHRP
    requirements….” Our report does not state that Siskiyou met or
    exceeded those requirements. For example, in the Additional Award
    Requirements section of our report, we indicate that deficiencies
    occurred as reported in the other sections of the report. With regard to
    Siskiyou’s program performance and accomplishments, our report
    discloses that while Siskiyou was on track to meeting the community
    policing objective of the grant, we found indications of supplanting
    which potentially impacted Siskiyou’s ability to fully meet the second
    CHRP objective of creating and preserving law enforcement officer jobs.

    This recommendation can be closed once we receive Siskiyou’s
    procedures and determine that COPS has ensured that Siskiyou has
    established procedures to make certain that its employees' timecards
    are properly approved.

5.	 Resolved. COPS concurred with our recommendation to ensure that
    Siskiyou establishes policies to account for future program income
    generated by federal grant-funded activities and that the resulting
    revenue is properly applied in accordance with applicable regulations.
    While Siskiyou stated that it did not concur with our recommendation, it
    also indicated in its response that it plans to implement procedures that
    may address the recommendation. Specifically, Siskiyou stated that it
    has implemented a plan to review each program fund site or line item
    every 2-week pay period which should provide a clear and definitive
    fiscal trail and supporting documentation. Although Siskiyou stated that
    it did not concur with our recommendation, its planned corrective action
    addresses the intent of the recommendation. COPS stated that it will


                                   - 46 ­
    review the policy that Siskiyou established to track and report future
    program income generated by federal grant-funded activities.

    Siskiyou also stated that: “[t]he Siskiyou County Sheriff’s Office has
    reasonably determined that supplanting did not take place during the
    duration of this grant in our designated contract cities.” The basis for
    our recommendation was the finding that program income was
    generated as a result of the law enforcement services provided by
    Siskiyou’s grant-funded deputies under a contractual basis to four cities.
    This recommendation does not relate to the non-supplanting
    requirement, which is discussed in our analysis for recommendation 1c.

    Siskiyou also stated that it exceeded the contract hours specified on the
    contracts, which it indicated should address the finding on which our
    recommendation was based. However, our finding was not based on
    the number of hours worked in comparison to what was agreed to the
    contract. Rather, our finding was based on the fact that the grant-
    funded officers worked on the contracts with other cities and generated
    revenue for Siskiyou while having their salaries charged to the grant we
    audited. As discussed in the report, because Siskiyou did not track
    program income, we could not determine how much revenue was
    actually generated by the grant-funded officers. Therefore, we provide
    this recommendation to ensure future program income is tracked and
    accounted for in accordance with grant terms and conditions.

    This recommendation can be closed once we receive Siskiyou’s policies
    and determine that COPS has ensured that Siskiyou established
    procedures to account for future program income generated by federal
    grant-funded activities and that the resulting revenue is properly applied
    in accordance with applicable regulations.

6.	 Resolved. COPS concurred with our recommendation to ensure that
    Siskiyou calculates the net allowable cost for its CHRP grant by
    determining the total allowable costs, verifying the total program
    income earned by its three grant-funded deputies, and subtracting the
    program income from total allowable costs. Our recommendation also
    stated that if net allowable costs are below the CHRP grant of $615,156,
    then Siskiyou may need to return the difference to COPS. COPS stated
    in its response that it will request that Siskiyou calculate and support
    the net allowable cost for the CHRP grant based on the program income
    received for the three grant-funded positions.

    While Siskiyou stated that it did not concur with our recommendation to
    calculate program income, it also indicated in its response that it


                                   - 47 ­
    performed a calculation of “the difference between the grant funding
    and program income and the excessive hours allocated to the contract
    cities indicate that funds were not supplanted and the cities received an
    excess number of hours which, when subtracted from the program
    income, does not indicate any supplanting of funds.” While we note that
    this recommendation relates to program income and not supplanting,
    we reviewed Siskiyou’s calculations and determined they do not appear
    to accurately address the program income generated by grant-funded
    officers. Specifically, Siskiyou provided these calculations in its
    response to recommendation 1c in which it indicated that total hours
    required for the contract would have been fulfilled after deducting the
    hours worked on the contracts by grant-funded deputies. However, this
    method assumes that the contract hours worked by the deputies were
    “free,” or did not generate revenue from the contract cities. During our
    audit, we requested but were not provided any evidence that hours
    worked by the grant-funded officers were free. Based on the contract
    and amounts provided for each contract, it appeared that the grant-
    funded officers generated revenue. As we discuss in our report,
    because Siskiyou did not track program income we could not identify
    how much revenue was generated.

    As a result, we believe Siskiyou should perform a reasonable and
    accurate analysis of how much program income was generated by the
    grant-funded officers in consideration of the amount of revenue it
    received for the specific hours worked by the officers in the contract
    cities while they were being funded by the grant. That amount should
    be compared to the net allowable costs for the deputies to identify the
    difference, as described in the regulations governing the grant. If net
    allowable costs are below the CHRP grant award of $615,156, then
    Siskiyou may need to return the difference to COPS.

    This recommendation can be closed once we receive Siskiyou’s accurate
    calculations of program income and determine that COPS has ensured
    that Siskiyou has calculated the net allowable cost for its CHRP grant by
    determining the total allowable costs, verifying the total program
    income earned by its three grant-funded deputies, and subtracting the
    program income from total allowable costs. If net allowable costs are
    below the CHRP grant award of $615,156, then Siskiyou may need to
    return the difference to COPS.

7.	 Resolved. COPS and Siskiyou concurred with our recommendation to
    ensure that Siskiyou bases its FFRs on actual expenditures rather than
    estimates or budgeted amounts. Siskiyou stated that it has established
    a new policy which will require specific expenditures be developed and


                                   - 48 ­
tracked each pay period in lieu of program estimates. In addition,
Siskiyou stated that the accounting of fiscal funds will be closely
monitored and separate calculations compiled on a regular basis. COPS
stated that it will review the policy that Siskiyou established to ensure
that FFRs are based on actual expenditures instead of estimates or
budgeted amounts.

This recommendation can be closed once we receive Siskiyou’s policy
and determine that COPS has ensured that Siskiyou bases its FFRs on
actual expenditures rather than estimates or budgeted amounts.




                               - 49 ­
